 ........'<••

                                                         .
(-!-
 +>' ""Vie
                                                         "

(~
\',:::2f-
~. ,.::::i
                  DEPARTMENT
                  DEPARTMENT OF
                             OF HEALTH
                                HEALTH & HUMAN
                                         HUMAN SERVICES
                                               SERVICES                                                                  General
                                                                                                     Office of Inspector General


                                                                                                     Washington.
                                                                                                     Washington, D.C. 20201


                                                                     FEB
                                                                     FEB 2 ''7
                                                                            7 2009
                                                                               2009


           TO:
           TO:              Charlene Frizzera
                            Charlene
                            Acting Administrator
                            Centers for
                            Centers for Medicare &
                                                 & Medicaid Services
                                                            Services
                                                                .

           FROM:
           FROM:            Daniel RR. L
                            IInspector. General
                                         evmson'
                              nspectoTGeneTaI
                                                   ~
                                       Levinson~'t? ~
                                            .
                                                  i?~ .
           SUBJECT:
           SUBJECT:         Hospital Compliance With Medicare's Postacute
                            Hospital                            Postacute Care Transfer Policy During
                            Fiscal Years 2003 Through 2005 (A-04-07-03035)
                                                           (A-04-07-03035)


           The attached
                attached final
                          final report
                                report provides the results of ourour nationwide
                                                                       nationwide review of hospital
                                                                                                hospital compliance
                                                                                                          compliance
           with Medicare's postacute care transfer policy.
                                                         policy. Consistent
                                                                  Consistent    with the  policy, Medicare    pays full
                                                                                                                   full
           diagnosis-related
           diagnosis-related group
                               group (DRG)
                                        (DRG) payments to  to hospitals
                                                              hospitals that
                                                                         that discharge
                                                                               discharge inpatients toto their homes.
                                                                                                               homes. InIn
           contrast, for specified    DRGs,
                     for specified DRGs,       Medicare pays   hospitals  that
                                                               hospitals that  transfer inpatients  to certain  postacute
                                                                                         inpatients to certain postacute
           care settings,
                settings, such
                          such asas aa skilled nursing facility
                                                       facility or
                                                                or home    health care,
                                                                    home health    care, a per diem
                                                                                               diem rate for
                                                                                                           for each
                                                                                                               each day
                                                                                                                    day
           ofthe  stay, not to exceed
           ofthe stay, not to exceed     the  full
                                              full DRG  payment    for a discharge.
                                                        payment for a discharge.

           Previous Office
                     Office of Inspector General
                                         General audits identified
                                                        identified Medicare
                                                                   Medicare overpayments to transferring
           hospitals that did
                          did not comply
                                  comply with the postacute care transfer policy.
                                                                          policy. In
                                                                                   In response to our
           recommendations, thethe Centers for Medicare && Medicaid Services
                                                                      Services (CMS) implemented an   an edit in
                                                                                                              in
           the Common     Working
               Common Working      File (CWF)  on January
                                                  January  1,2004,  to detect
                                                                       detect transfers improperly coded
                                                                                                   coded asas
           discharges.
           discharges.

           Our objectives
                objectives were
                           were to determine whether (1)(1) hospitals
                                                            hospitals properly coded
                                                                               coded claims
                                                                                      claims subject
                                                                                             subject to
           Medicare's
           Medicare's   postacute care transfer policy during fiscal
                                                              fiscal  years 2003
                                                                            2003 through 2005 and (2)
                                                                                 through  2005     (2) the new
           edit in
                in the
                   the CWF
                       CWF detected
                             detected all
                                      all overpayments.
                                          overpayments.

           Hospitals did
                     did not always
                              always properly code claims subject
                                                               subject to Medicare's postacute care transfer
           policy. Of  the 150
                   Ofthe 150    claims  in our sample,  92  claims  totaling $137,226 were improperly
                                                                                             improperly coded
                                                                                                         coded as
           discharges tv home
                      to home   rather  than transfers to
                                                       to postacute   care. We  did
                                                                      care. We did  not identify
                                                                                        identify any errors in
                                                                                                            in the
           remaining 58
                      58 claims.
                          claims. Based on our sample
                                                  sample results,
                                                           results, we estimated
                                                                        estimated that hospitals nationwide
           improperly
           improperly coded 15,051 claims and that Medicare overpaid $24,830,856
                       coded   15,051  claims  and that Medicare    overpaid  $24,830,856 to
                                                                                           to these
                                                                                              these hospitals
                                                                                                    hospitals for
                                                                                                               for
           the 3-year period that ended September 30, 2005.
                                                          2005.

           Most of
           Most  of the
                    the overpayments
                        overpayments occurred      because CMS
                                        occurred because    CMS lacked
                                                                  lacked adequate  payment system
                                                                         adequate payment    system controls
                                                                                                     controls
           before implementing the CWF edit. Although overpayments were significantly reduced after
           before implementing    the CWF    edit.  Although   overpayments  were  significantly reduced  after
           implementation of
           implementation   of the
                               the edit,
                                   edit, the
                                         the edit
                                             edit did
                                                   did not
                                                       not detect
                                                           detect 12
                                                                  12 overpayments.
                                                                     overpayments.
Page 2 – Charlene Frizzera


We recommend that CMS:

   •   instruct the fiscal intermediaries to:

       o   recover the $137,226 in overpayments identified in our sample and

       o   review the remaining claims in our sampling frame and identify and recover
           additional overpayments estimated at $24,693,630 and

   •   determine why the CWF edit did not detect 12 overpayments and amend the edit as
       appropriate.

In written comments on our draft report, CMS concurred with our recommendations.

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of Inspector General reports
generally are made available to the public to the extent that information in the report is not
subject to exemptions in the Act. Accordingly, this report will be posted on the Internet at
http://oig.hhs.gov.

Please send us your final management decision, including any action plan, as appropriate, within
60 days. If you have any questions or comments about this report, please do not hesitate to call
me, or your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through e-mail at George.Reeb@oig.hhs.gov.
Please refer to report number A-04-07-03035 in all correspondence.


Attachment
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




HOSPITAL COMPLIANCE WITH
MEDICARE’S POSTACUTE CARE
 TRANSFER POLICY DURING
    FISCAL YEARS 2003
      THROUGH 2005




                    Daniel R. Levinson
                     Inspector General

                      February 2009
                      A-04-07-03035
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                    EXECUTIVE SUMMARY

BACKGROUND

Medicare’s postacute care transfer policy distinguishes between discharges and transfers of
beneficiaries from hospitals under the inpatient prospective payment system. Consistent with the
policy, Medicare pays full diagnosis-related group (DRG) payments to hospitals that discharge
inpatients to their homes. In contrast, for specified DRGs, Medicare pays hospitals that transfer
inpatients to certain postacute care settings, such as a skilled nursing facility or home health care,
a per diem rate for each day of the stay, not to exceed the full DRG payment for a discharge.

Previous Office of Inspector General audits identified Medicare overpayments to transferring
hospitals that did not comply with the postacute care transfer policy. In response to our
recommendations, the Centers for Medicare & Medicaid Services (CMS) implemented an edit in
the Common Working File (CWF) on January 1, 2004, to detect transfers improperly coded as
discharges.

OBJECTIVES

Our objectives were to determine whether (1) hospitals properly coded claims subject to
Medicare’s postacute care transfer policy during fiscal years 2003 through 2005 and (2) the new
edit in the CWF detected all overpayments.

SUMMARY OF FINDINGS

Hospitals did not always properly code claims subject to Medicare’s postacute care transfer
policy. Of the 150 sampled claims, 92 claims totaling $137,226 were improperly coded as
discharges to home rather than transfers to postacute care. We did not identify any errors in the
remaining 58 claims. Based on our sample results, we estimated that hospitals nationwide
improperly coded 15,051 claims and that Medicare overpaid $24,830,856 to these hospitals for
the 3-year period that ended September 30, 2005.

Most of the overpayments occurred because CMS lacked adequate payment system controls
before implementing the CWF edit. Although overpayments were significantly reduced after
implementation of the edit, the edit did not detect 12 overpayments.

RECOMMENDATIONS

We recommend that CMS:

   •   instruct the fiscal intermediaries to:

       o   recover the $137,226 in overpayments identified in our sample and

       o   review the remaining claims in our sampling frame and identify and recover
           additional overpayments estimated at $24,693,630 and



                                                  i
   •   determine why the CWF edit did not detect 12 overpayments and amend the edit as
       appropriate.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments on our draft report, CMS concurred with our recommendations. CMS’s
comments, excluding a technical comment, are included as Appendix C.




                                             ii
                                                  TABLE OF CONTENTS

                                                                                                                                      Page

INTRODUCTION..........................................................................................................................1

          BACKGROUND .................................................................................................................1
              Postacute Care Transfer Policy................................................................................1
              Discharge Status Codes and Condition Codes.........................................................1
              Prior Office of Inspector General Reports and Centers for Medicare
                & Medicaid Services Corrective Actions .............................................................2

          OBJECTIVES, SCOPE, AND METHODOLOGY.............................................................2
               Objectives ................................................................................................................2
               Scope .......................................................................................................................3
               Methodology ...........................................................................................................3

FINDINGS AND RECOMMENDATIONS ................................................................................4

          POSTACUTE CARE TRANSFER REQUIREMENTS .....................................................4

          CLAIMS IMPROPERLY CODED AS DISCHARGES RATHER THAN
           TRANSFERS....................................................................................................................5

          PAYMENT CONTROLS ....................................................................................................5

          EXCESSIVE MEDICARE DIAGNOSIS-RELATED GROUP PAYMENTS...................5

          RECOMMENDATIONS.....................................................................................................6

          CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS ........................6


APPENDIXES

          A – SAMPLING METHODOLOGY

          B – SAMPLE RESULTS AND ESTIMATES

          C – CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS




                                                                    iii
                                              INTRODUCTION

BACKGROUND

Postacute Care Transfer Policy

With the implementation of the Medicare inpatient prospective payment system (IPPS) in 1983,
a discharge was defined as a beneficiary’s release from an IPPS hospital to any setting other than
another IPPS hospital. A transfer was defined as a beneficiary’s release from an IPPS hospital
and admission to another IPPS hospital on the same day. Section 4407 of the Balanced Budget
Act of 1997, P.L. No. 105-33, expanded the definition of a transfer by establishing the Medicare
postacute care transfer policy. Pursuant to section 1886(d)(5)(J) of the Social Security Act (the
Act), 42 U.S.C. § 1395ww(d)(5)(J), and implementing regulations (42 CFR § 412.4(c)), a
postacute care transfer occurs when a beneficiary whose hospital stay was classified within
specified diagnosis-related groups (DRG) is released from an IPPS hospital in one of the
following situations:

    •    The beneficiary is admitted on the same day to a hospital or hospital unit that is not
         reimbursed under the IPPS.

    •    The beneficiary is admitted on the same day to a skilled nursing facility.

    •    The beneficiary receives home health services from a home health agency, the services
         are related to the condition or diagnosis for which the beneficiary received inpatient
         hospital services, and the services are provided within 3 days of the beneficiary’s
         hospital discharge date.

Pursuant to 42 CFR §§ 412.4(e) and (f), Medicare pays the full DRG payment to a hospital that
discharges an inpatient to home. In contrast, Medicare pays a hospital that transfers an inpatient
to postacute care a per diem rate for each day of the stay, not to exceed the full DRG payment
that would have been made if the inpatient had been discharged to home.

Nationally, hospitals billed Medicare for 10.2 million discharges for DRGs subject to the
postacute care transfer policy during fiscal years (FY) 2003 through 2005.

Discharge Status Codes and Condition Codes

The Centers for Medicare & Medicaid Services (CMS) requires hospitals to include discharge
status codes on all inpatient claims. 1 A discharge status code is a two-digit code that identifies a
beneficiary’s status at the conclusion of an inpatient stay. When a hospital discharges a
beneficiary to home, discharge status code 01 (discharge to home) should be used. However,
when a beneficiary is transferred to a setting subject to the postacute care transfer policy, a



1
 In CMS’s manuals, the discharge status code is also referred to as the “patient status code.” For example, see
chapter 25, § 60.2, of the 2005 version of the “Medicare Claims Processing Manual,” Pub. No. 100-04.


                                                          1
different discharge status code should be used, depending on the type of postacute care setting. 2
For example, discharge status code 03 should be used when the beneficiary is transferred to a
skilled nursing facility, and discharge status code 06 should be used when a beneficiary is
transferred to home for home health services.

CMS also requires that specific condition codes be used on inpatient claims for beneficiaries
transferred to home for home health services that are not subject to the postacute care transfer
policy. If the services are not related to the hospitalization, the hospital should use condition
code 42 with discharge status code 06. If the services are not provided within 3 days of the
discharge date, the hospital should use condition code 43 with discharge status code 06 (65 Fed.
Reg. 47054, 47081 (Aug. 1, 2000)).

In the preamble to the final postacute care transfer rule (63 Fed. Reg. 40954, 40979–80 (July 31,
1998)), CMS emphasized hospitals’ responsibility to code discharge bills based on inpatient
discharge plans. If a hospital subsequently learns that postacute care was provided, the hospital
should submit an adjusted bill.

Prior Office of Inspector General Reports and Centers for
Medicare & Medicaid Services Corrective Actions

Previous Office of Inspector General (OIG) audits identified Medicare overpayments that
occurred because hospitals did not comply with the postacute care transfer policy. 3 In those
reports, we recommended that CMS provide education to make hospitals aware of the policy and
require fiscal intermediaries to implement system edits to prevent and detect postacute care
transfers that are miscoded as discharges. CMS generally concurred with our recommendations
and initiated collection efforts on the overpayments that we identified. Effective January 1,
2004, CMS also implemented an edit in the Common Working File (CWF) to detect improperly
coded claims and instructed its fiscal intermediaries to modify their claim-processing systems.

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether (1) hospitals properly coded claims subject to
Medicare’s postacute care transfer policy during FYs 2003 through 2005 and (2) the new edit in
the CWF detected all overpayments.


2
 See Program Memorandum (PM), Transmittal No. A-98-26, July 1, 1998; PM, Transmittal No. A-01-39, Mar. 22,
2001, Change Request 1565; Medicare Learning Network’s Medlearn (MLN) Matters Number: SE0801; and MLN
Matters Number: MM4046, Related Change Request 4046.
3
 Previous audits included “Implementation of Medicare’s Postacute Care Transfer Policy at Blue Cross Blue Shield
of Georgia” (A-04-00-01210), “Implementation of Medicare’s Postacute Care Transfer Policy at First Coast Service
Options” (A-04-00-02162), “Implementation of Medicare’s Postacute Care Transfer Policy” (A-04-00-01220),
“Compliance With Medicare’s Postacute Care Transfer Policy for Fiscal Year 2000” (A-04-02-07005), and “Review
of Hospital Compliance With Medicare’s Postacute Care Transfer Policy During Fiscal Years 2001 and 2002”
(A-04-04-03000). These reports are available at http://oig.hhs.gov.


                                                       2
Scope

To identify transfers incorrectly coded as discharges, we focused on the 1.4 million Medicare
claims with a discharge status code of 01 (discharge to home). By matching the 1.4 million
claims for discharges to home to subsequent claims for postacute care, we identified a sampling
frame of 17,278 claims for discharges within the DRGs subject to the postacute care transfer
policy for the 3-year period that ended September 30, 2005. The sampling frame excluded
discharges from Maryland hospitals because they were not reimbursed under the IPPS. The
sampling frame also excluded all claims for which the beneficiary’s length of stay at the hospital
would have resulted in full payment to the hospital.

Our audit allowed us to establish reasonable assurance of the authenticity and accuracy of the
data obtained from Medicare payment files; we did not assess the completeness of the files. We
also did not review the medical records of the IPPS hospitals from which the beneficiaries in our
sample were discharged to determine whether there was a written plan of care for the provision
of home health services.

We conducted our fieldwork at CMS headquarters in Baltimore, Maryland, from September
2007 to February 2008.

Methodology

To accomplish our objectives, we:

   •    reviewed applicable Federal laws, regulations, and guidance;

   •    selected a stratified random sample of 150 claims from the 17,278 claims in the sampling
        frame;

   •    reviewed the CWF for each of the 150 sampled claims to verify admission and discharge
        dates, the Medicare-paid amount, and whether the claim had been canceled;

   •    used CMS’s “Pricer” program for the applicable FY to calculate what the correct
        payments to hospitals should have been for discharges that were followed by postacute
        care;

   •    subtracted the correct OIG-calculated payment from the original Medicare payment to the
        hospital to determine the hospital overpayment; and

   •    estimated, based on our sample results, the number and dollar value of overpayments to
        IPPS hospitals nationwide.

See Appendix A for details on our sampling methodology and Appendix B for the sample results
and estimates.




                                                3
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                               FINDINGS AND RECOMMENDATIONS

Hospitals did not always properly code claims subject to Medicare’s postacute care transfer
policy. Of the 150 sampled claims, 92 claims totaling $137,226 were improperly coded as
discharges to home rather than transfers to postacute care. We did not identify any errors in the
remaining 58 claims. Based on our sample results, we estimated that hospitals nationwide
improperly coded 15,051 claims and that Medicare overpaid $24,830,856 to these hospitals for
the 3-year period that ended September 30, 2005.

Most of the overpayments occurred because CMS lacked adequate payment system controls
before implementing the CWF edit on January 1, 2004. Although overpayments were
significantly reduced after implementation of the edit, the edit did not detect 12 overpayments.

POSTACUTE CARE TRANSFER REQUIREMENTS

Pursuant to Medicare regulations (42 CFR § 412.4(e)), an inpatient hospital that discharges a
beneficiary to home is paid the full DRG payment. In contrast, for specified DRGs, a hospital
that transfers an inpatient to one of three specified postacute settings is paid a per diem rate for
each day of the stay, not to exceed the full DRG payment that would have been made if the
inpatient had been discharged to home (42 CFR § 412.4(f)).

For a beneficiary whose hospital stay was classified within one of the specified DRGs, a
discharge from an IPPS hospital to a qualifying postacute care setting is considered a transfer.
The qualifying postacute care settings are (1) hospitals or hospital units that are not reimbursed
under the IPPS, 4 (2) skilled nursing facilities, and (3) home health care if services are provided
within 3 days of the discharge.

In PM, Transmittal No. A-01-39, dated March 22, 2001, CMS advised hospitals that the use of
discharge status code 01 (discharge to home) is appropriate only when the beneficiary is
discharged from an inpatient facility and either (1) is not admitted on the same day to a non-IPPS
facility or skilled nursing facility or (2) does not receive any home health services within 3 days
of the date of discharge.

When a beneficiary is discharged to home for home health services, the discharge status
code should be 06 regardless of whether the services are related to the hospital stay or whether
the services are provided within the 3-day window. If the home health services are not subject to

4
 Section 1886(d)(5)(J) of the Act refers to hospitals and hospital units that are not reimbursed under the IPPS as “not
subsection (d) hospitals.” Section 1886(d)(1)(B) of the Act identifies the hospitals and hospital units that are
excluded from the term “subsection (d) hospitals,” such as psychiatric hospitals and units, rehabilitation hospitals
and units, children’s hospitals, long-term-care hospitals, and cancer hospitals.


                                                          4
the postacute care transfer policy, hospitals should use discharge status code 06, together with
the applicable condition code to indicate why the services are not subject to the policy.

CLAIMS IMPROPERLY CODED AS DISCHARGES
RATHER THAN TRANSFERS

Of the 150 sampled claims, 92 claims totaling $137,226 were improperly coded as discharges to
home rather than transfers to postacute care.

       •    Sixty-two claims for discharges were followed by claims for home health services
            provided within 3 days of the discharge date. These improperly coded claims resulted in
            $91,797 in excess payments to the discharging hospitals.

       •    Eighteen claims for discharges were followed by claims for skilled nursing services
            provided on the same day as the discharge date. These improperly coded claims resulted
            in $32,431 in excess payments to the discharging hospitals.

       •    Twelve claims for discharges were followed by claims for admissions to non-IPPS
            hospitals or hospital units on the same day as the discharge date. These improperly coded
            claims resulted in $12,997 in excess payments to the discharging hospitals. 5

PAYMENT CONTROLS

The overpayments identified in our sample for the period before January 1, 2004, occurred
because CMS lacked adequate payment system controls to detect miscoded claims.

CMS responded to recommendations in previous OIG reports by implementing an edit in the
CWF effective January 1, 2004. This edit compares inpatient claims with postacute care claims
to detect potential overpayments to discharging hospitals. Our audit identified significantly
fewer overpayments following the implementation of the CWF edit. However, the edit did not
detect 12 overpayments in our sample: 6 overpayments in FY 2004 (from April 1, 2004, to
September 30, 2004) and 6 overpayments in FY 2005. We were unable to determine why the
edit did not detect the 12 overpayments.

EXCESSIVE MEDICARE DIAGNOSIS-RELATED GROUP PAYMENTS

Based on our sample results for FYs 2003 through 2005, we estimated that IPPS hospitals
nationwide improperly coded 15,051 claims and that Medicare made $24,830,856 in excessive
DRG payments to hospitals as a result of the erroneous coding. Of the estimated $24,830,856 in
overpayments, $21,015,492 was attributable to FY 2003, when CMS did not have a CWF edit in
place to prevent the overpayments. The table on the next page shows the reduction in both the
number of potentially miscoded claims in the sampling frame and the estimated overpayments in
FY 2004, during part of which the CWF edit was operational, and the significant reduction in
FY 2005, during all of which the CWF edit was operational.


5
    The dollar amounts in the bullets do not total $137,226 because of rounding.


                                                            5
                             Reduction in Estimated Overpayments

                          Number of                      Number of
                                                                       Value of
                          Potentially     Sample         Miscoded                    Estimated
                                                                     Overpayments
                          Miscoded         Size          Claims in                  Overpayments
                                                                      in Sample
                           Claims                         Sample
 FY 2003 (stratum 1)        11,822              50          49         $88,883       $21,015,492

 FY 2004 (stratum 2)         4,534              50          37          40,475         3,670,286

 FY 2005 (stratum 3)           922          50               6           7,868           145,078

    Total                   17,278          150             92         $137,226      $24,830,856


RECOMMENDATIONS

We recommend that CMS:

   •   instruct the fiscal intermediaries to:

       o    recover the $137,226 in overpayments identified in our sample and

       o    review the remaining claims in our sampling frame and identify and recover
            additional overpayments estimated at $24,693,630 and

   •   determine why the CWF edit did not detect 12 overpayments and amend the edit as
       appropriate.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments on our draft report, CMS concurred with our recommendations. CMS
stated that it would request the data necessary to recover each overpayment or potential
overpayment. We will provide the requested data.

CMS’s comments, excluding a technical comment, are included as Appendix C.




                                                     6
APPENDIXES
                                                                                     APPENDIX A
                                                                                       Page 1 of 2

                               SAMPLING METHODOLOGY

IDENTIFICATION OF SAMPLING FRAME

We developed a database of paid claims for diagnosis-related groups subject to Medicare’s
postacute care transfer policy for the period October 1, 2002, through September 30, 2005. The
database contained 10,169,124 final adjudicated claims totaling $76,137,783,877. We excluded
from the database:

   •   claims other than those having a discharge status code of 01 (discharge to home);

   •   claims from Maryland hospitals, which were not reimbursed under the inpatient
       prospective payment system (IPPS);

   •   claims for which full payment was due and no overpayment would have occurred
       because the claims met the provisions of the postacute care transfer policy;

   •   claims for discharges from hospitals that did not participate in the IPPS; and

   •   claims for which the Medicare payment amount equaled zero.

Using the above criteria, we created a database of claims with 1,439,817 unique Health
Insurance Claim Numbers. We compared that database with the Centers for Medicare
& Medicaid Services’ Standard Analytical Files database of Medicare claims to determine
whether any of the claims were “matched” by:

   •   an admission to a non-IPPS hospital or hospital unit on the discharge date,

   •   an admission to a skilled nursing facility on the discharge date, or

   •   treatment by a home health agency within 3 days after the discharge date.

The resulting matches identified a sampling frame of 17,278 claims totaling $185,671,964 for the
period October 1, 2002, through September 30, 2005, from which we drew our sample.

SAMPLE UNIT

The sample unit was a claim.

SAMPLE DESIGN

We used a stratified random sample. We divided the sampling frame into three strata, with each
stratum representing a fiscal year (FY).
                                                                                  APPENDIX A
                                                                                    Page 2 of 2


                                                       No. of Claims in
                             Stratum                   Sampling Frame

                          1—FY 2003                          11,822
                          2—FY 2004                           4,534
                          3—FY 2005                             922
                             Total                           17,278

SAMPLE SIZE

We randomly selected 50 claims from each stratum for a total of 150 claims.

ESTIMATION METHODOLOGY

We used Office of Inspector General, Office of Audit Services, statistical software to estimate
the number of improperly coded claims in the sampling frame and the dollar value of
overpayments.
                                                                              APPENDIX B


                       SAMPLE RESULTS AND ESTIMATES

SAMPLE RESULTS

                                                         Number of
                                                         Improperly     Value of
                        Sample          Value of
       Stratum                                             Coded      Overpayments
                         Size           Sample
                                                          Claims in    in Sample
                                                           Sample
    1—FY 2003             50            $529,398             49            $88,883
    2—FY 2004             50             312,973             37             40,475
    3—FY 2005             50             361,174              6              7,868
      Total               150          $1,203,545            92            $137,226


ESTIMATES

        Estimated Number of Improperly Coded Claims for FYs 2003–2005
               Limits Calculated for a 90-Percent Confidence Interval

                           Point estimate           15,051
                           Lower limit              14,442
                           Upper limit              15,661


                 Estimated Value of Overpayments for FYs 2003–2005
                  Limits Calculated for a 90-Percent Confidence Interval

                      Point estimate
                          Stratum 1            $21,015,492
                          Stratum 2              3,670,286
                          Stratum 3                145,078
                             Total             $24,830,856

                      Lower limit              $16,215,710
                      Upper limit              $33,446,001
APPENDIX C
  Page 1 of 3
APPENDIX C
  Page 2 of 3
APPENDIX C
  Page 3 of 3
